<html>
<title> - THE STATE OF INTELLECTUAL FREEDOM IN AMERICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
              THE STATE OF INTELLECTUAL FREEDOM IN AMERICA

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON THE CONSTITUTION
                           AND CIVIL JUSTICE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2018

                               __________

                           Serial No. 115-68

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         

         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
                             ________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-122                 WASHINGTON : 2018            


      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                        ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
 RAUL LABRADOR, Idaho                DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
KEN BUCK, Colorado                   JAMIE RASKIN, Maryland
JOHN RATCLIFFE, Texas                PRAMILA JAYAPAL, Washington
MARTHA ROBY, Alabama                 BRAD SCHNEIDER, Illinois
MATT GAETZ, Florida                  VALDEZ VENITA ``VAL'' DEMINGS, 
MIKE JOHNSON, Louisiana                  Florida
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Georgia
KEITH ROTHFUS, Pennsylvania

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on the Constitution and Civil Justice

                       STEVE KING, Iowa, Chairman
LOUIE GOHMERT, Texas                 STEVE COHEN, Tennessee
KAREN HANDEL, Georgia                JAMIE RASKIN, Maryland
                                     THEODORE E. DEUTCH, Florida
                                     
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 27, 2018
                           OPENING STATEMENTS

                                                                   Page
The Honorable Steve King, Iowa, Chairman, Subcommittee on the 
  Constitution and Civil Justice.................................    00
The Honorable Steve Cohen, Tennessee, Ranking Member, 
  Subcommittee on the Constitution and Civil.....................    00
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................    00
The Honorable Jerry Nadlar, New York, Ranking Member, Committee 
  on the Judiciary...............................................    00

                               WITNESSES

Dr. Mike Adams, Professor, University of North Carolina at 
  Wilmington
    Oral Statement...............................................    00
Dr. Peter Wood, President, National Association of Scholars
    Oral Statement...............................................    00
Mike Simkovic, Professor of Law and Accounting, USC Gould School 
  of Law
    Oral Statement...............................................    00
Dr. Tim Groseclose, Professor, George Mason University
    Oral Statement...............................................    00
Jim Hoft, Founder and Editor, The Gateway Pundit
    Oral Statement...............................................    00
Adriana Cohen, Syndicated Columnist, Boston Herald Radio Host
    Oral Statement...............................................    00
Jeremy Tedesco, Vice President of U.S. Advocacy, Alliance 
  Defending Freedom
    Oral Statement...............................................    00
Ari Waldman, Professor of Law, New York Law School
    Oral Statement...............................................    00
Harmeet K. Dhillon, Esq., Partner, Dhillon Law Group Inc
    Oral Statement...............................................    00

                        QUESTIONS FOR THE RECORD

    The Honorable Steve King, Iowa, Chairman, Subcommittee on the 
        Constitution and Civil Justice, Questions for the Record. 
        This material is available at the Committee and can be 
        accessed on the committee repository at:

    https://docs.house.gov/ meetings/ JU/JU10/ 20180927/108458/ 
      HHRG-115-JU10-20180927-SD004.pdf...........................

              Additional Material Submitted for the Record

Letters Submitted by the Honorable Steve King, Iowa, Chairman, 
  Subcommittee on the Constitution and Civil Justice. This 
  material is available at the Committee and can be accessed on 
  the committee repository at:

    https://docs.house.gov/meetings/ JU/JU10/20180927/ 108458/
      HHRG-115-JU10- 20180927-SD003.pdf..........................


              THE STATE OF INTELLECTUAL FREEDOM IN AMERICA

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                        House of Representatives

           Subcommittee on the Constitution and Civil Justice

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 11:38 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve King 
[Chairman of the Subcommittee] presiding.
    Present: Representatives King, Goodlatte; Cohen, Nadler, 
and Raskin.
    Staff present: Joe Graupensperger, Minority Chief Counsel, 
Subcommittee on Crime; James Park, Minority Chief Counsel, 
Subcommittee on the Constitution; David Greengrass, Minority 
Senior Counsel; Matthew Morgan, Minority Professional Staff 
Member; Veronica Eligan, Minority Professional Staff Member; 
Akhil Thodari, Minority Intern.
    Mr. King. The Subcommittee on the Constitution and Civil 
Justice will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    We welcome everyone to today's hearing on, ``The State of 
Intellectual Freedom in America,'' and I now recognize myself 
for an opening statement.
    When anyone is silenced, the result is censorship. That is 
plain and simple. But it takes a more sinister form, 
particularly in settings that claim to champion open discourse, 
and when it is performed quietly behind closed doors, it also--
in many cases, only the person who is censored knows what's 
happened. And even then, the person often doesn't know how or 
why it has happened.
    Fortunately, Americans are beginning to recognize this 
quiet trend in our society in which one group or another 
systemically silences another's beliefs with which they 
disagree. On college campuses, the academic freedom at an 
institution is threatened when professors feel retaliation or 
administrative sway for what they choose to research or teach 
or even discuss in a casual setting.
    Fear in turn results in exclusion, which can produce a 
chilling effect in academia that affects the credibility of 
entire bodies of research. And that would include scientific 
research once thought immune to political influence.
    For example, in an April 2018 report issued by the National 
Association of Scholars titled ``The Irreproducibility Crisis 
of Modern Science,'' political groupthink in a scientific 
culture biased towards producing positive results are among the 
factors contributing to a shocking number of scientific results 
in fields ranging from medicine to social psychology that 
additional research can't reliably reproduce.
    The report states, and I quote, ``Groupthink inhibits 
attempts to check results since replication studies can 
undermine comfortable beliefs. An entire academic discipline 
can succumb to groupthink and create a professional consensus 
with a strong tendency to dismiss results that question its 
foundations. The overwhelming political homogeneity of 
academics has also created a culture of groupthink that 
distorts academic research since researchers may readily accept 
results that confirm a liberal worldview while rejecting 
conservative conclusions out of hand.''
    Without objection, the report will be made a part of the 
record. The focus of today's hearing, however, isn't limited to 
college campuses. Indeed, this committee continues to hear from 
Americans who are being discriminated against on the basis of 
their politics, and also on the basis of their interests and 
their beliefs on social media platforms.
    In some cases, tech companies claim that they act with good 
intentions. Silicon Valley's censoring of hate speech, for 
example, has ostensibly become their latest effort to combat 
terrorism. But as pointed out in a National Review article 
published earlier this year, ``Moderate Muslims and critics of 
Islam as political ideology found themselves subject to bans 
and restrictions on social media for articulating reasonable 
ideas and criticisms that deserve debate rather than 
restriction.''
    YouTube, for example, restricted video presentations by 
people such as Kasim Hafeez, Ayaan Hirsi Ali, and Quram Dara. 
In 2017, Facebook restricted posts by an organization called 
Ex-Muslims of North America. They oppose radical Islam and they 
seek to comfort apostates. How Facebook and Google actions are 
intended to combat radicalization defies reason.
    As we continue to explore this issue, I find it significant 
that the problems occurring on the platforms are also occurring 
inside the social media companies themselves. Testimony 
submitted by one of our witnesses today indicates that these 
companies are targeting employees with opposing views, even 
extending its bias beyond just political beliefs. Indeed, 
according to today's testimony, men, whites, Asians, 
Christians, those with conservative family values, are daily 
punished for who they are and for what they believe.
    And I would add to this statement an observation that was 
made to me over in Western Europe as I was seated with a number 
of their leaders. And I pointed out to them that they need 
American-style First Amendment freedom of speech rights all 
across that continent. That open dialogue is not taking place 
there, and it is inhibiting their ability to move their society 
forward because of this groupthink.
    And they looked at me and said, ``We have more freedom of 
speech in Europe than you have in America.'' A pretty stunning 
statement, and I did my best to rebut that, and pointed out 
that they are locking people up for violating freedom of 
speech--or for exercising freedom of speech. And they said, we 
seldom lock anyone up. But you have deposed founders of 
companies, CEOs of companies, for making a political donation 
that is disagreed with by the groupthink here in this country.
    When they made that point, I have got to rethink mine. Our 
constitutional rights need to be protected. They need to be 
expanded. They need to be respected, not only in law but in our 
culture.
    And so with that, today's hearing will expose--explore some 
of these problems, among others, and in greater detail. With 
that, I would like to thank all the witnesses for being here 
today. I look forward to your testimony, and I now recognize 
the ranking member, Mr. Cohen of Tennessee, for his opening 
statement.
    [The statement of Mr. King follows:]

                  **********COMMITTEE INSERT**********

    Mr. Cohen. Thank you, Mr. Chair. As we are here today, and 
I am sure no one is watching because everybody is watching Dr. 
Blasey Ford's testimony, which I was able to watch some of, and 
what a heroic, brilliant, and honest woman that is, who has 
gone through unbelievable attacks for coming forward and 
talking about a sexual assault that she suffered that has 
suffered--made her suffer for years.
    Some have suggested she is doing it for fame, possibly for 
getting in--a movie contract, or some future benefit. That is 
despicable. She is doing it because she is a victim who knows 
she needs to come forward and let the American people know the 
type of person who is being nominated for the Supreme Court of 
the United States.
    Meanwhile, we are here. And what is the purpose of this 
hearing? It is the last week before midterms, and the last 
opportunity Republicans have to waste precious subcommittee 
time, which is limited, and which we have spent no time looking 
into the problems that we have seen about the last election and 
the fault of--the lack of--the attacks on elections and voting 
rights, and the Emoluments Clause violations, et cetera.
    It is a longstanding tactic of Republican political 
strategy to relentlessly push the narrative that conservatives 
are the victims of an oppressive cultural elite that tries to 
suppress conservative views, almost making a fetish out of 
their own supposed victimhood. And in the statement of the 
chairman, he said something about stopping people from speaking 
who have family values. Well, there are a lot of people who 
have family values who are not conservative. That is not 
something conservatives have to themselves. Mr. Greengrass back 
here has a son, Ben. I guarantee that David Greengrass has 
family values.
    This argument is belied by the fact that Republicans 
currently control all of the elected components of our national 
Government as well as a majority of State governments. That is 
hardly evidence that conservative views do not get a fair 
opportunity to shape public opinion. Indeed, conservatives 
enjoy the support of a vast and thriving right-wing media 
machine ranging from talk radio, to where the only thing you 
can get on AM these days is talk radio of the right, 
conservative ilk or sports talk, to Fox News, to a host of 
conservative websites and social media outlets like Breitbart, 
Daily Caller--I don't know what their names are. I don't read 
them or listen to them. But I see their tweets, oftentimes 
making awful pejorative statements, some of which have 
questioned my religion, or some of their followers have, and 
said, yes, we are not surprised his name is Cohen.
    One of our witnesses later is going to be Cohen. She 
doesn't think anything like I think. But a lot of those people 
say, we are not surprised his name is Cohen, suggesting I have 
some kind of dual alliance with Israel, which of course I 
don't, or other nefarious thoughts.
    And notable conservatives have held and continue to hold 
prestigious positions in academia. Just one prominent example 
is Judge Anton Scalia, who prior to being appointed to the 
Federal bench was a law professor at the University of Chicago.
    Stanford University is home to the Hoover Institution, a 
respected conservative think tank that has served as a place of 
scholarship for such prominent Republicans as Condoleezza Rice, 
Donald Rumsfeld, and George Shultz, as well as conservative 
scholars like Thomas Sowell and Niall Ferguson.
    As was clearly established during two prior full committee 
hearings on social media content and moderation practices, 
there is no credible evidence that social media companies 
intentionally target conservative content for censorship. 
Indeed, similar complaints have been raised by certain liberal 
activists about the way social media companies apply their 
content moderation policies.
    Moreover, even if social media companies were actually 
intentionally discriminating against conservative viewpoints, 
it would be so well within their rights to do so, just as Fox 
News and Breitbart and Sinclair do.
    In short, there is no merit to the majority's principal 
argument underlying the hearing. What we should be dealing with 
are the fact that we are living in a time when the rule of law 
is under grave threat by the actions of Trump, who appears to 
have little respect for constitutional or democratic norms, 
whether the issue is the separation of powers, respect for the 
judiciary, respect for women, and a free press or a government 
free of conflicts of interest and ethical lapses.
    We are living in a time when the right to vote is being 
undermined by voter suppression tactics ranging from voter 
identification laws to elimination of same-day registration and 
prohibitions on nonviolent ex-offender voting, tactics that 
disproportionately affect African Americans and other minority 
groups. We are living in a time when the truth itself is under 
attack.
    We are living in a time when hostile foreign powers like 
Russia continue their efforts to meddle in our electoral system 
to discredit and erode confidence in democracy itself. We are 
living also in the time of the Me Too movement, where women who 
have been victims of sexual harassment and sexual assault are 
bravely stepping forward, as Dr. Christine Blasey Ford is doing 
now, and confronting their victimizers. They are just a few of 
the many other issues that are far more worthy of the 
subcommittee's time than today's political gimmick of a 
hearing. The American people deserve better.
    [The statement of Mr. Cohen follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. The gentleman's time has expired, and the chair 
would now recognize the ranking member of the full committee, 
Mr. Nadler of New York.
    Mr. Nadler. Thank you, Mr. Chairman. The purported subject 
of today's hearing is the state of intellectual freedom in 
America. Despite this lofty title, however, the hearing's 
actual purpose is to reinforce the bogus narrative that 
cultural institutions and those that run them are arrayed 
against conservative people and ideas.
    We start with an old favorite of the right-wing media 
sphere, which is the assertion that colleges and universities 
are dedicated to persecuting conservative scholars while 
brainwashing students into becoming liberal activists. Simply 
put, however, there are plenty of conservative academics 
teaching at colleges and universities, including at least three 
sitting before us today.
    And as if a hearing on the topic of liberal academics alone 
was not already a waste of taxpayers' dollars, today's hearing 
will also feature a panel on a right-wing conspiracy theory of 
more recent vintage, namely, that social media companies are 
intentionally supressing conservative viewpoints.
    This would now be the third hearing that the House 
Judiciary Committee has held this year on so-called anti-
conservative media bias, anti-conservative social media bias. 
At no point in the previous two hearings have we been presented 
with any credible evidence that social media companies are 
censoring conservatives for ideological reasons.
    But even if they were, so what? They are private companies. 
They are entitled, if they want, to propagate or favor whatever 
views they--they favor, liberal, conservative, or whatever; as 
do Fox, right-wing talk radio, and Sinclair. They are 
unabashedly right-wing. They have a right to be.
    Or are the people who are running this committee and the 
people on the right-wing who are propagating this nonsense, do 
they favor bringing back the fairness doctrine abolished by 
Ronald Reagan's FCC? If they do, maybe we can talk about that, 
and then Fox will be forced to broadcast liberal viewpoints for 
every conservative viewpoint they broadcast. So will Sinclair. 
So will right-wing talk radio. Right-wing talk radio probably 
wouldn't exist. We'll be able to kiss Glenn Beck and Rush 
Limbaugh goodbye. And maybe some people think that's a good 
idea, and maybe not, but in the absence of bringing back the 
fairness doctrine, what are we even talking about?
    Instead of indulging in conservative talking points, the 
subcommittee could be holding a substantive hearing about the 
use of social media. For instance, we could be holding a 
hearing on the undisputed fact that the Russian Government used 
social media to wage a disinformation campaign to attack our 
democracy during the 2016 election. Indeed, in light of the 
upcoming midterm election, such a hearing would be timely.
    The Wall Street Journal, a publication not exactly known 
for its liberal bias, reported just last month that U.S. 
intelligence officials warned of a ``pervasive'' effort by 
Russia to disrupt the 2018 election. Yet rather than focus on a 
real topic of critical concern, protecting the integrity of our 
elections against foreign interference, the majority has now 
wasted three hearings on meritless claims of anti-conservative 
social media bias by private companies that have every right, 
if they wish, to favor liberals' or conservatives' views or 
anything else they want to.
    This hearing is remarkable in one sense. The majority seems 
to have reached a new low in terms of who it has chosen to 
invite as witnesses. Many of the majority witnesses here today 
are not just notable for their fringe ideological positions, 
but for their extreme conduct, their peddling of false 
conspiracy theories that hurt innocent people, their outright--
and their outright animus and bigotry toward the cries of gays, 
lesbians, and transgender people.
    For example, Jim Hoft of Gateway Pundit website, in an 
attempt to discredit the courageous efforts of the survivors of 
the horrific shooting at Parkland High School in Florida in 
support of reasonable gun regulations, helped to propagate the 
false story that these shooting survivors were not real victims 
but were instead trained ``crisis actors.''
    After Mr. Hoft's website published that story, sponsors of 
a panel on the topic of suppression of conservative views on 
social media at the Conservative Political Action Conference, 
an annual gathering of leading conservative activists, demanded 
that Mr. Hoft be removed from the panel, and ultimately the 
panel was cancelled as a result.
    In short, Mr. Hoft's association with the ``crisis actor'' 
conspiracy theory was too much even for CPAC, which describes 
itself as the birthplace of conservativism. Yet Mr. Hoft has 
been invited here today to testify before this subcommittee, to 
disgrace the subcommittee by his presence. Apparently, this 
subcommittee is less scrupulous than the organizers of CPAC.
    As if this were not enough of an embarrassment to our 
committee, Professor Mike Adams, another majority witness, a 
professor, has a history of harassing students and making 
remarks disparaging LGBTQ persons. When challenged about his 
behavior, Professor Adams tried to hide behind the claim that 
his statements were mere ``satire'' or exaggerations meant to 
anger liberals.
    We should, however, listen to just some of Professor Adams' 
statements. He mockingly asked whether a 19-year-old student 
was on a ``queer Muslim jihad'' and wrote, ``Her claims to be a 
queer Muslim are probably part of an act designed to fit into 
as many victim categories as possible.'' This by a professor 
against a student. He referred to transgender people as 
``mentally ill,'' and he said that ``Gay couples do not deserve 
equal benefits because they do not equally benefit society.'' 
Political correctness run amuck? No. Simple bigotry.
    Also invited to testify here today is Alliance Defending 
Freedom, an organization that represented Professor Adams in 
his free speech claim against his university, and which 
continues to advance the outrageous argument that the 
Constitution's free exercise clause permits business owners to 
discriminate against LGBTQ persons or other people they choose 
to discriminate against. I must note that their willingness to 
represent Professor Adams calls into quantity the integrity of 
the argument that they are simply defending religious liberty 
rather than invidious discrimination.
    Finally, the majority's argument that conservative views 
are being suppressed is undermined by the fact that the 
witnesses appear to have a wide audience for their views. For 
instance, both Mr. Hoft and Professor Adams have had no problem 
leveraging the internet, and in Professor Adams' case his 
taxpayer-funded perch at a public university, to connect with 
like-minded followers.
    The very fact that we are holding this hearing today 
refutes the claim that conservative viewpoints are not being 
adequately heard by society or reflected by American political 
institutions. Today's hearing is being held because 
conservative Republicans currently control the House of 
Representatives, not to mention the Senate, the presidency, and 
the majority of State legislatures and governorships. This is 
hardly evidence of the suppression and victimization of 
conservatives or their views.
    But many conservatives conveniently ignore these facts. The 
truth is that despite conservatives' dominance of our 
Government, they continue cultivating the notion that they are 
the true victims, and honing resentment of ``cultural elites''' 
among their base, a cynical tactic that has undergirded 
conservative political strategy for decades. In the process, 
they are only too happy to lob insults and criticism at 
students, universities, or technology companies, and to 
complain about the fact that members of historically 
marginalized groups seek redress for their real victimhood.
    And so here we are today, at what must--at what must be the 
most expensive taxpayer-funded safe space ever to listen yet 
again to conservative complaints about their purported 
victimhood. This hearing is truly a disgrace as well as a waste 
of time.
    I yield back.
    [The statement of Mr. Nadler follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. The gentleman's time has expired. And now we'll 
look forward to the cost-benefit analysis at the conclusion of 
this topic.
    I recognize the chairman of the full committee, Mr. 
Goodlatte, for his opening statement.
    Chairman Goodlatte. Well, thank you, Mr. Chairman. And 
before I give my prepared remarks, I just want to say that I am 
pleased that here in this hearing today we're going to have the 
kind of open discussion of differing points of view that it 
seems that some on the other side of the aisle would like to 
suppress even here.
    At one time there was likely no other place in the United 
States that had at one time or another received more praise 
than Silicon Valley or an American college campus for being 
bastions of free and open expression. Some time in our recent 
past, however, this praise has faded, and today there are few 
settings in America that can identify as being more homogeneous 
in political thought and belief.
    According to data cited by the Heterodox Academy, college 
professors went from leaning left to being almost entirely on 
the left some time in the years between 1995 and 2010. 
Likewise, according to a working paper based on a survey by 
political scientists at Stamford University, Silicon Valley, in 
terms of voting, is one of the most strongly Democratic-leaning 
areas in the Nation.
    However, I would be less concerned about which party is 
most represented in these settings if there wasn't also a 
glaring absence of competing viewpoints. Indeed, in their 
present state, these settings appear to be examples of what 
happens when homogeneous groups of people begin to purposefully 
root out people who challenge their beliefs.
    Silicon Valley, for example, has been called a self-made 
echo chamber. Greg Lukianoff, who has testified before this 
committee, and professor Jonathan Haidt, have both identified a 
movement on college campuses to scrub campuses clean of words, 
ideas, and subjects that might cause discomfort or give 
offense.
    The trend towards uniformity in thought and belief, and the 
means to enforce it, should be alarming to all of us as 
individuals and collectively to us as a Nation. College is a 
time for students to learn, to appreciate viewpoints that may 
be different from their own, and we as a society will suffer if 
colleges are allowed to filter the views of their professor, 
proffer and relegate student expression to obscure designated 
areas on campus. Likewise, if social media platforms are 
allowed to filter content that does not comply with the 
company's beliefs, society will suffer from a less tolerant and 
misinformed populace.
    Today's hearing will offer insight into this problem and 
will certainly bear on how Congress addresses these issues.
    With that, I want to thank all of our witnesses in 
attendance today, and I look forward to their testimony.
    Thank you, Mr. Chairman.
    [The statement of Chairman Goodlatte follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. I thank the chairman of the full committee, Mr. 
Goodlatte, and the other members of the committee for their 
opening statements. Without objection, other members' opening 
statements will be made part of the record.
    I will now introduce our first panel of witnesses. Our 
first witness is Dr. Mike Adams, a professor at the University 
of North Carolina at Wilmington. Our second witness is Dr. 
Peter Wood, the president of the National Association of 
Scholars. Our third witness is Mike Simkovic, a professor of 
law and accounting at the University of Southern California 
Gould School of Law. And then our fourth witness is Dr. Tim 
Groseclose, who is a professor at George Mason University. So 
all doctors and I think all professors.
    The light switch will turn from green to yellow. It will 
indicate that you have a minute left in your five minutes of 
testimony. And it is the tradition of this committee to ask the 
witnesses to stand and be sworn in. So if you would please 
stand, our four witnesses, and raise your right hand.
    Do you swear that the testimony you are about to give 
before this committee is the truth, the whole truth, and 
nothing but the truth, so help you God?
    Let the record show that the witnesses answered in the 
affirmative. You may be seated. Thank you, gentlemen.
    And I now recognize our first witness, Dr. Adams, for five 
minutes.
    Dr. Adams, you may start with your rebuttal, if you prefer.

    TESTIMONY OF MIKE ADAMS, PROFESSOR, UNIVERSITY OF NORTH 
    CAROLINA AT WILMINGTON; PETER WOOD, PRESIDENT, NATIONAL 
 ASSOCIATION OF SCHOLARS; MIKE SIMKOVIC, PROFESSOR OF LAW AND 
   ACCOUNTING, USC GOULD SCHOOL OF LAW; AND TIM GROSECLOSE, 
               PROFESSOR, GEORGE MASON UNIVERSITY

                    TESTIMONY OF MIKE ADAMS

    Dr. Adams. Well, thank you. It is an honor to testify 
before you here today.
    The reason I am here before you is that I am a veteran of a 
7\1/2\-year First Amendment lawsuit in which I ultimately 
prevailed against my university.
    In 1993 I was hired as a leftist and an atheist by a 
liberal Department of Sociology and Criminology at the 
University of North Carolina at Wilmington. I won my first 
teaching award in 1996. I won Professor of the Year in 1998, 
and I was easily awarded tenure later that year.
    But later things changed. In 1999, I became a registered 
Republican, and I also returned to Christianity in the year 
2000 after winning my second Faculty Member of the Year award.
    After 9/11, I was involved in a free speech battle that 
drew some national media attention. That controversy began when 
I was accused of violating one of our numerous unconstitutional 
speech policies at the university.
    And pursuant to that complaint, the university searched 
through some private emails looking for evidence related to the 
alleged violation. After the Foundation for Individual Rights 
in Education intervened, the university lied about the 
inspection of those private emails, and that's when I decided 
to start fighting back.
    In 2003, I started writing a column for TownHall.com that 
focused on exposing threats to free speech on college campuses. 
In 2005, I started speaking for the Young Americas Foundation. 
The speeches often encourage students to make legal challenges 
to unconstitutional speech policies on their campus.
    In 2006, I applied for and was denied promotion to full 
professor. When I requested an explanation for the denial, I 
was told that I was deficient in each and every single area of 
evaluation--teaching, research, and service. In a nutshell, 
before my change in worldview and the decision to criticize 
unlawful university policies, I was showered with awards; 
afterwards, I was considered deficient in every possible way.
    Thus, with the encouragement of the Alliance Defending 
Freedom, I sued for First Amendment retaliation. After 
discovery was completed, we had direct evidence of viewpoint 
discrimination. For example, the university chancellor actually 
attempted to change the criteria for promotion in order to 
penalize me for criticizing university policies and practices. 
Secret investigations were launched in order to determine 
whether I was engaged in transphobic speech in the classroom. 
And my avowed Marxist feminist department chair actually 
tampered with faculty evaluations of my fitness for promotion.
    In the face of direct evidence of viewpoint discrimination, 
not to mention evidence-tampering, the university should have 
settled the case. Instead, they argued that they had the right 
to engage in viewpoint discrimination.
    The university claimed that my speeches for YAF and my 
articles for TownHall.com were transformed from protected 
speech into official duties as soon as I mentioned them on my 
promotion application. Thus, they argued that it was 
permissible for them to engage in viewpoint discrimination.
    Initially, unfortunately, the district court agreed and the 
judge dismissed my case. But next we decided to appeal our case 
to the Fourth Circuit Court of Appeals in Richmond, and there 
we won a unanimous opinion stating that my columns and speeches 
retained the full protection of the First Amendment. So 7 years 
into the conflict, we finally had a jury trial. And it took the 
jury less than 2 hours of deliberation to rule in my favor. I 
was awarded promotion to full professor and $50,000 in back 
pay. My attorneys were awarded $710,000 in legal fees.
    As bad as my ordeal was, students on the campuses that I 
visit have it much worse. They are routinely confined to 
unconstitutional speech zones, and within them they are 
routinely punished under unconstitutional speech codes. 
Generally speaking, they don't know that the university is 
violating their rights. And to make matters worse, 
administrators routinely deceive the students about the scope 
of their constitutional rights.
    And this brings me to my central point in the testimony, 
which is the need for accountability for universities that 
knowingly violate the Constitution. During the Obama 
administration, we saw something that was absolutely 
unprecedented. Under the guise of enforcing Title 9, the 
Department of Education actually made the receipt of Federal 
funding contingent upon depriving students accused of sexual 
assault of basic constitutional protections.
    Now I believe it is time for us to reverse course and make 
the receipt of Federal funding contingent upon honoring the 
constitution rather than violating the constitution. And I hope 
that the discussion on specifically how to do that will begin 
today. That is why I am here.
    I look forward to your questions.
    [The written statement of Dr. Adams follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Dr. Adams. We appreciate your 
testimony.
    The Chair will now recognize Dr. Wood for your five 
minutes.
    Dr. Wood.

                    TESTIMONY OF PETER WOOD

    Dr. Wood. Thank you. Intellectual freedom is the bedrock of 
our republic. Now, as someone who uses words carefully, or at 
least tries to, let me say right away that that is a metaphor. 
Intellectual freedom is not literally bedrock or any kind of 
stone.
    What I really mean is that intellectual freedom is the 
foundation of other essential freedoms: freedom of the press, 
freedom of religion, freedom of assembly, freedom of having our 
own opinions, and freedom of inquiry. Without intellectual 
freedom, voting makes no sense. If we can't think for 
ourselves, we are just engaged in making empty gestures. And 
without intellectual freedom, education is just indoctrination.
    Bedrock, a metaphor. But the name foundation doesn't much 
advance things. Foundation is a metaphor, too. In fact, it is 
very difficult, maybe impossible, to talk about intellectual 
freedom without metaphors. Now, why is that?
    I am an anthropologist, not a philosopher, so I have only a 
guess. Intellectual freedom means the ability to step outside 
your village, or in your imagination to separate yourself at 
least a little from your own tribe long enough to ask whether 
the things you have always been told are true are actually 
true.
    Now, those things might actually be true. But if you step 
far enough outside the village to meet people who believe 
something else, the world suddenly becomes a more complicated 
place. In 1776, a handful of British colonists stepped far 
enough outside the village of England to question whether they 
really needed a king. The rest is, as they say, history.
    America has been born in skepticism as well as idealism, 
and intellectual freedom is the combination of those two 
things: skepticism that all the important questions have 
already been answered adequately; idealism that people of good 
will and determination could ask the questions for themselves 
and seek better and perhaps more truthful answers. That is why 
intellectual freedom is the bedrock or the foundation of other 
freedoms of our republic as a whole.
    We have even developed a specialized institution to advance 
intellectual freedom on behalf of the rest of society. That is 
the university. Intellectual freedom, however, like any other 
powerful force, has to be used wisely. You don't step outside 
your village to plunge off a cliff or into quicksand.
    Now, one of the biggest dangers that comes with 
intellectual freedom is that it implies the freedom to turn 
against itself. It rejects an old doctrine as mere bigotry or 
idol worship, and the next minute it has a brand-new bigotry 
and a shiny new idol. That, I fear, is where we are right now. 
It is where we have landed today, especially in our 
universities.
    In my written testimony I reviewed 15 recent cases of 
college professors and other prominent intellectuals who were 
shut down on campus because they ran into this new bigotry and 
idol worship. Some of 15 have prevailed, as has Professor 
Adams. I am pleased that professor John McAdams, his namesake 
at Marquette University, is back on the job after the Wisconsin 
Supreme Court reprimanded Marquette for suppressing McAdams' 
academic freedom.
    But in most of the other cases that I've mentioned, the new 
academic tyranny continues to dominate. It's a tyranny with 
many weapons at its disposal. Some have already been mentioned, 
but let's say speech codes; bias response teams; labeling free 
speech as micro-aggression or as hate speech; imposing trigger 
warnings on teachers; waving the flag of cultural 
appropriation; attacking people for implicit bias; free speech 
zones; and beyond that; disinvitations or noninvitations; 
deselection of conservatives from faculty searches; forced 
withdrawals of published papers--we've had several of those 
recently; negative tenure and promotion decisions.
    Beyond that, groupthink; trial by accusation, which might 
sound familiar; labeling as racist any opinion with which you 
disagree. And beyond that, treating intellectual freedom itself 
as a form of illegitimate privilege that favors whites or the 
majority or the powerful or somebody other than me.
    The new tyranny or the new tribalism has been on college 
campuses and nurtured there. It is its home ground, but it 
hasn't stayed there. The claims of victimhood and the rule by 
accusation that are its chief characteristics have spread to 
the wider culture and, it is now all too clear, become part of 
our politics. They drive the polarization of our culture.
    The answer to this, I will concur with Professor Adams, is 
a new constitutionalism. Thank you.
    [The statement of Dr. Wood follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Dr. Wood.
    The Chair will now recognize Professor Simkovic for his 
testimony.
    Professor Simkovic.

                   TESTIMONY OF MIKE SIMKOVIC

    Mr. Simkovic. Thank you for the opportunity to share my 
thoughts on intellectual freedom and the role of universities 
in civil society. I am expressing my individual views and not 
those of my employer, the University of Southern California.
    Albert Einstein once described universities as ``temples 
of--of science,'' where a finely tempered nature longs to 
escape from the painful crudity of everyday life into the world 
of objective perception and thought. This may be compared to 
the silence of high mountains, where the eye ranges freely 
through the still, pure air and finally traces out the restful 
contours apparently built for eternity.
    There is no such thing as right-wing or left-wing physics 
or chemistry or mathematics. Universities do not and should not 
strive to track the shifting median policy positions between 
competing political parties or kowtow to the preferences of 
donors or political leaders.
    Universities instead must strive to promote rigorous, 
objective research using the best data, the most qualified 
personnel, and the best analytic tools available. To help 
protect researchers' independence and insulate them from undue 
pressure, universities grant academic tenure. Nothing 
comparable is available to think tank researchers or 
journalists, who can be and have been fired for their views. To 
help academics correct our own mistakes, we use peer review, 
replication, internal debate, and other checks.
    Universities' efforts to expand human knowledge have 
contributed to innovation and economic growth, and to rising 
levels of prosperity and longevity. Education boosts earnings 
in employment, reduces burdens on public services, and helps 
fund the government by increasing payroll and income tax 
revenues.
    Ideology and political representativeness are not part of 
academic institutions' mission. Academia is inherently 
skeptical of dogma or party platforms. Scientists believe in 
the pursuit of objective knowledge and truth in adherence to 
standards of rigor and fairness, and in the elevation of facts 
above ideological or political priors.
    There is no such thing as liberal or conservative science. 
Universities seek to foster critical thinking, communication 
and problem-solving skills, not to indoctrinate students into a 
particular set of political beliefs.
    Disagreement between knowledgeable scientific experts and 
median political views often do not suggest political bias on 
the part of scientists, but rather an effort by think tanks, 
media organizations, interest groups, and politicians to 
inappropriately politicize science and scientific issues.
    For example, the causes and consequences of climate change 
are scientific issues. The likely economic harm from such 
changes and the costs of preventing or mitigating them are also 
scientific issues. So are the adverse health consequences from 
air and water pollution, or the health effects of smoking. So 
is the question of whether tax cuts can generate enough 
economic growth to reduce the debt to GDP ratio.
    While scientific questions can have political and policy 
implications, scientific inquiry should not be politicized. The 
best evidence should be analyzed with the best methods, and the 
implications and degree of uncertainty honestly convey to 
policy-makers and the public. But according to scientific 
experts, many scientific issues have been inappropriately 
politicized when scientific evidence threatens private sector 
profits or government budgets. This includes the causes and 
effects of climate change, the health risks of pollen, and the 
dangers of tobacco use.
    According to a Pew survey, nearly 80 percent of scientists 
believe that previous Federal administrations suppressed 
government scientists' findings for political reasons. Many 
scientists worry that to sustain scientific findings for 
political reasons is becoming more common.
    Note that the Pew sample consists overwhelmingly of natural 
or hard scientists in fields such the medical sciences, 
chemistry, physics, and geosciences. Pew's sample included 
those who work in private industry as well as those who work in 
government and universities.
    Recently there have been systemic efforts by some Members 
of Congress to weaken the role of science in informing agency 
rulemaking, and increase the role of political actors. Some 
politicians have also sought to prevent government agencies 
from collecting basic data about demographics, the environment, 
health and safety, and the economy, even if de-identified to 
protect individual privacy.
    Today threats to academic freedom can come from powerful 
donors, political leaders, and outside pressure groups, who 
sometimes seek to subtly, or not so subtly, influence 
ostensible neutral and unbiased academic research to further 
their own business interests or other political preferences.
    The best way to protect universities from undue influence 
may be to secure and expand revenue sources that are 
indifferent to or cannot sway the conclusions of academic 
research. This is analogous to the approach we take to try to 
protect independence of members of the Federal judiciary or the 
Federal Reserve. Thank you.
    [The statement of Professor Simkovic follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Professor Simkovic.
    And the Chair will now recognize Dr. Groseclose--
Groseclose--for his testimony.
    Doctor.

                  TESTIMONY OF TIM GROSECLOSE

    Dr. Groseclose. Thank you. Good afternoon. My name is Tim 
Groseclose. Since 2014, I have been a professor of economics at 
George Mason University. Before that, for 11 and a half years, 
I was a professor of political science at UCLA.
    Two research projects that I have conducted are especially 
relevant to the problems within academia that I plan to discuss 
today. One of those projects examines media bias and tries to 
measure it quantitatively. The main conclusion of my research 
basically was that conservatives have been largely correct on 
this issue. According to many findings, almost all mainstream 
media outlets really do have a left-of-center bias.
    The second research project sprang from some administrative 
work that I did at UCLA. From 2005 to 2008, I was a member of 
the university's Faculty Oversight Committee for Undergraduate 
Admissions. I saw some suspicious and possibly illegal activity 
while on the committee. I asked members of the admissions staff 
to give me data so I could test my suspicions. They refused.
    I consequently resigned from the committee in protest, and 
eventually I wrote a book which is now entitled, ``Cheating: An 
Insider's Report on the Use of Race in Admissions at UCLA.'' My 
written statement lists eight anecdotes. Let me give, in the 
interest of time, quick summaries of just three of those 
anecdotes.
    Anecdote 1: A young professor from another university gave 
a seminar at UCLA. Afterward, I told them, ``You know who would 
love your results? Ann Coulter. I kind of know her. Would you 
mind if I send her an email? I bet she might write about your 
research.'' The young researcher quickly replied, ``Oh, please 
don't do that. That could only hurt my career.''
    Anecdote 2: At UCLA, I was denied what I thought would be 
an automatic promotion. I am convinced that the reason was due 
to my research on media bias and UCLA admissions, specifically, 
because the results of those research projects displeased--
because they displeased progressives. If the data just would 
have produced the opposite results, ones that would have 
pleased progressives, I am certain that I would have been 
granted the promotion. Because of that promotion denial, my 
wife and I decided it would be best if I left UCLA. We could 
see that I would not be treated fairly if I remained at UCLA.
    Anecdote 3--however, it is listed as Anecdote 4 in my 
written statement: Two friends who are political science 
professors examined the extent to which Barack Obama's skin 
color affected voters' decisions. They found, perhaps 
surprisingly, that his skin color had a net positive effect. 
That is, although some people voted against Obama because he is 
black, more people voted for him because he is black.
    The two professors presented the research at a conference 
of political scientists where they received an extremely 
hostile reaction. They eventually abandoned the research. They 
never published it, and they no longer list the working paper 
on their websites. Although one should always be careful in 
trying to assess motives, I strongly suspect that the 
professors abandoned the research because they knew it could 
hurt their careers.
    Conclusion: I believe that these anecdotes illustrate some 
general principles of academic reason. First, if you are bold 
enough to report results that displease progressives, there is 
a good chance that that will jeopardize your career. Second, 
many professors, understanding that principle, wisely squelch 
or fail to report results if they know that the results will 
displease progressives.
    Third and perhaps most disturbing, all this means that the 
results that we, the public, get to see are not a 
representative sample of all the results of academic research. 
Instead, the sample that we get to see has been distorted and 
cherry-picked. Thank you.
    [The statement of Dr. Groseclose follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Dr. Groseclose.
    The chair would now proceed to questioning, and I will now 
recognize myself for opening five minutes. And I would like to 
turn first to Dr. Adams.
    Dr. Adams. Yes.
    Mr. King. And Dr. Adams, you won a lawsuit, and I guess I 
am struck by the attorney fees versus the settlement that you 
received, $50,000.
    Dr. Adams. Yes.
    Mr. King. Was that adequate compensation for what you went 
through?
    Dr. Adams. Actually, it was. It was back pay, basically, 
for the--well, what is interesting about the situation was that 
the promotion was only--to full professor, was $5,000 per year, 
which makes it all the more interesting that the university 
insisted upon spending the time, kind of effort and time, that 
they did in fighting it, which I think was a poor use of 
taxpayer money.
    Mr. King. Well, thank you. And I always say, who gets to 
decide, then, what is hate speech or what is inhibitionist 
speech on a college campus? That is what this is about, and 
apparently the court decided that you had more freedom than the 
university thought you should have.
    But who should get to decide, and how does the society sort 
it out? You are looking for a solution, is why you are here, 
and I am looking for your advice.
    Dr. Adams. We reject the concept of hate speech altogether, 
just as the Supreme Court did last year in the ``Slants'' 
decision. That is what we do. And when universities come along 
and try to paper over the Constitution, we hold them 
accountable for doing that.
    And that is a very serious concern that I have about my 
university and about universities--universities in general, 
that they will fight these kinds of lawsuits and they will--
because they are playing with other people's money, they will 
run up six- and even seven-digit legal bills and not really 
worry about it. And there is no consequence whatsoever.
    I think we need to attach a consequence to this kind of 
violation of--would you like me to elaborate on that just a 
little bit? I was taking a look, for example, at the 424B form 
that the Department of Education requires every single 
university president to sign off every single time that there 
is a non-construction grant for research or for academic 
programs.
    There are probably 15 different promises that the 
university president had to sign off on. ``We are not engaged 
in human trafficking. We are not engaged in violating 
environmental laws.'' It is high time that we added a sixteenth 
category, which says that the university has to promise that 
they are not engaged in violations of the First Amendment in 
order to receive any grant money whatsoever.
    And if they sign off on that, and if at the end of the year 
there's a judgment against them and they receive federal 
funding saying they weren't violating people's First Amendment 
rights, when they were, turn them over to the Department of 
Justice for fraud. That is my view.
    Mr. King. That is a proposal worthy of consideration.
    I would say is there anything there was said here on this 
panel that you would like to have an opportunity to rebut?
    Dr. Adams. You mean in the introductory statements?
    Mr. King. Yes.
    Dr. Adams. Congressman Nadler made some statements. I would 
like to rebut them, but he has fled. So I didn't have the 
opportunity. I am sorry he didn't have more courage.
    Mr. King. Okay. Well, thank you, Dr. Adams.
    Then I would turn, then, to Dr. Wood. And you made a 
statement that surprised me when you said that if we don't have 
freedom of speech, that there really isn't a point in having 
elections. Would you care to expand on that thought a bit?
    Dr. Wood. Sure. Intellectual freedom means making decisions 
based on as much evidence and reason as you can. Without the 
ability to hear what the other side has to say in any dispute 
where there is more than one side, one is reduced to just 
making a reflexive gesture. There is no thought content to it 
at all.
    Party loyalty might be a nice thing in some circumstances, 
but I prefer to see party loyalty mixed up with a little bit of 
careful thought about what the alternatives are. So I don't 
think we should have elections essentially conducted by robots. 
We need human beings who encounter ideas and think about them 
and decide, what is the best course for the country?
    Mr. King. And you mentioned, I believe, that you are an 
anthropologist?
    Dr. Wood. Yes, I am.
    Mr. King. And so I would ask you this question. This is 
more about our society. But there are trends that come for 
different reasons. And that would be this then: I mean, from my 
perspective, I think we have reasonable people that are 
generally on the right side of the aisle that will take data 
and facts and the exact sciences that Professor Simkovic 
mentioned, and use that as the foundation for their process.
    And it looks to me like the other side is pushing emotion 
and feelings against facts and data. Have you examined that in 
any way that you could help illuminate the knowledge of this 
panel with?
    Dr. Wood. I wrote a book titled, ``A Bee in the Mouth: 
Anger in America Now,'' a few years ago which I think bears on 
this. Our willingness to find a kind of illusory strength in 
feeling, how it registers ``angry all the time'' a sort of drug 
in the American mind. I don't think it is limited to people on 
the left, but right now it appears to have become a sort of 
fixed thing on campus that students and quite a few faculty 
members take their reason for being in expression of anger. So 
yes, emotion is getting the upper hand of serious inquiry.
    Mr. King. Thank you, Dr. Wood. I see it that my time has 
expired.
    And the chair would now recognize the gentleman from 
Maryland, Mr. Raskin, a professor in his own right, for his 
five minutes.
    Mr. Raskin. Thank you very much, Mr. Chairman. I just want 
to start by saying I do not think our colleague fled for lack 
of courage. Everybody has got a bunch of committee and 
subcommittee meetings going on, and he is the ranking member of 
Judiciary. I am sure he would love to pursue the debate with 
you later, Dr. Adams, and certainly I would like to do it.
    Let me start with this. There is a complaint that is often 
made by those on the right that certain groups indulge in 
whining and victimology. But now that complaint is being turned 
around on you guys, and the claim is being made you guys are 
victimologists. You are indulging in self-pity. You are 
constantly whining about how you are being silenced on campus 
and silenced in corporations and so on.
    Do any of you identify as whiners, or do you feel like you 
are victimologists? And if not, then I want to talk about, 
concretely, what we can do to deal with the free speech.
    Dr. Wood, what is with you? Do you feel like you are a 
whiner?
    Dr. Wood. No, I do not. I publish a quarterly journal 
called ``Academic Questions,'' and one of the principles in it 
is, no whining.
    Mr. Raskin. Okay. Dr. Adams, are you a whiner? Or are you 
just whining about what happened----
    Dr. Adams. No. I--No. I fight back.
    Mr. Raskin. Yes.
    Dr. Adams. Quite successfully. So----
    Mr. Raskin. Okay. And are you a whiner?
    Dr. Groseclose. Somewhat.
    Mr. Raskin. Yeah?
    Dr. Groseclose. Let me explain. When I was at--at UCLA, I 
noticed some professors would get--they would become activists. 
And my wife and I, secretly, we would--we would call them 
losers. And I found myself at the end of my tenure at UCLA, 
when I am complaining about some of these things, I am having 
to whine, and I am having to become somewhat of an activist.
    I never intended that. When I went into academia, my plan 
was to be a teacher and a researcher.
    Mr. Raskin. Well, I appreciate your candor about that.
    Dr. Groseclose. And I had to tell my wife, ``I am becoming 
one of those losers.''
    Mr. Raskin. Well, why--well----
    Dr. Groseclose. It is part of the--it is part of the reason 
I left UCLA.
    Mr. Raskin. Because you felt like you were being 
discriminated against and, you felt, far too much.
    Dr. Groseclose. And it was causing me to be a whiner.
    Mr. Raskin. Okay. Well, let me--okay, so----
    Dr. Groseclose. I said, ``No. I will just leave. I will do 
something about this.''
    Mr. Raskin. All right. Forgive me for hurrying us along. I 
have only got five minutes.
    Dr. Groseclose. I understand. Yeah.
    Mr. Raskin. But if we could transform the whining into 
something concrete. I think Dr. Adams ventured a suggestion 
about how there should be a law which requires campuses to 
respect free speech. That is a concrete, tangible, legislative 
proposal.
    Dr. Adams. Uh-huh.
    Mr. Raskin. Let's start with this. Should that apply just 
to public universities like the one that you were able 
successfully to sue, Dr. Adams, or should it apply across the 
board? As quickly as possible.
    Dr. Adams. In my view, just to public universities.
    Mr. Raskin. Just to public.
    Dr. Wood, what do you think?
    Dr. Wood. I believe that every university that receives 
Federal funding should be subject to some degree of oversight 
on public----
    Mr. Raskin. Public and private, secular, religious, all of 
them together? Very good.
    Dr. Wood. Yes.
    Mr. Raskin. Professor Simkovic.
    Mr. Simkovic. I think that the best way to protect academic 
freedom is with tenure and insulation from outside pressure. I 
would like to see that extended from universities to think 
tanks and, frankly, media organizations. I think it is very 
important that institutions that help generate knowledge in our 
society have the ability to act with integrity and 
independence, and not be fearful of retaliation and having 
their budgets cut.
    Mr. Raskin. And you agree that that should apply to private 
universities and colleges as well? For example, in Washington, 
D.C., we have Catholic University and Georgetown University, 
which have banned pro-choice speakers or forbidden pro-choice 
or gay groups at different points in their history. Should they 
be required, as private entities, to respect the First 
Amendment rights of all of their students? Or should we say 
that the relevant First Amendment rights are those of the 
bureaucrats who run the universities?
    Mr. Simkovic. Yes. So I, again, do not believe that there 
is a need for Federal legislation dictating policy at 
universities.
    Mr. Raskin. Okay.
    Mr. GARTEN: I think it is sufficient for universities to 
protect the tenure----
    Mr. Raskin. Professor Groseclose--okay. Where are you on 
this?
    Dr. Groseclose. Definitely I think with public 
universities. I think currently it would be constitutional to 
say, ``You must protect free speech.'' If you are not a public 
university, it is not clear. But I think----
    Mr. Raskin. No. But the question is, should we adopt a free 
speech policy? For example, I don't know if you ever read 
William F. Buckley's ``God and Man at Yale.''
    Mr. Simkovic. I have.
    Mr. Raskin. But he took the position that Yale should be 
propounding Christianity, which would be much to Dr. Adams' 
liking, undoubtedly. And it should be propounding certain 
conservative views, and it should simply eliminate the 
professors who don't agree.
    Should Yale have the right to do that as a private 
institution? Or should we be able to--or should we cut off 
money to the Yale research funds if they discriminate based on 
people's politics?
    Dr. Groseclose. I think it would be constitutional and also 
reasonable if Congress passed a statute to that effect. And if 
I were a congressman, I would vote for such a statute.
    Mr. Raskin. Okay. And it should apply whether you call 
yourself religious or not. Because right now, what is happening 
is a lot of----
    Dr. Groseclose. As long as you get Federal funding. If you 
get Federal funding----
    Mr. Raskin. Yeah. As long as you get Federal funding.
    Dr. Groseclose. Yes.
    Mr. Raskin. And Dr. Adams, do you agree with that, too?
    Dr. Adams. No, I don't.
    Mr. Raskin. You don't? Well, why not? I thought you were a 
big champion of free speech.
    Dr. Adams. No, sir. No, the--no, the private institutions 
should just be honest about what they are. For example----
    Mr. Raskin. Well, leave aside honesty. Should they have the 
right to discriminate based on free speech: In other words, 
should they discriminate based on viewpoint? I mean, say you 
were at a private university. It would be fine for the 
university to fire you for what you wrote or to deny you a 
promotion?
    Dr. Adams. Oh, religious schools, of course.
    Mr. Raskin. Well, forgetting religious----
    Mr. King. The gentleman's time has expired.
    Mr. Raskin [continuing]. Just say a private school. I mean, 
Yale is a religious school.
    Mr. King. The gentleman will be----
    Dr. Adams. Right.
    Mr. King. The gentleman's time has expired.
    Dr. Adams. Well, it used to be. It used to be.
    Mr. King. The witness will be allowed to answer the 
question.
    Mr. Raskin. Sorry?
    Dr. Adams. It used to be, but it is not any more.
    Mr. Raskin. Well, in its eyes, it is. So should Yale have 
the right to deny you a promotion because it says it is a 
religious school and your attitudes or beliefs are out of 
keeping with its own particular religious views?
    Dr. Adams. They should just be honest about what they 
advertise.
    Mr. Raskin. Forgetting being honest, should they have a 
right----
    Dr. Adams. Forget being honest. Forget being honest.
    Mr. King. The gentleman's time has expired.
    Dr. Adams. I can't forget being honest.
    Mr. Raskin. Well, you are not answering my question.
    Dr. Adams. I am in the wrong hearing, I guess.
    Mr. King. The gentleman's time has expired.
    And the chair now recognizes chairman of the full 
committee, Mr. Goodlatte of Virginia, for his five minutes.
    Chairman Goodlatte. Well, thank you, Mr. Chairman. Let me 
just ask the panelists--I will go right down the line--are you 
familiar with legislation introduced by Senator Hatch in the 
Senate, which would amend the Higher Education Act of 1965 to 
ensure the public institutions of higher education protect 
expressive activities in the outdoor areas on campus?
    Not familiar with it? Well, I guess I don't need--well, I 
will just ask you whether you think that is a good idea or not, 
that basically would amend the Higher Education Act to make a 
provision that allows for the bringing of lawsuits and the 
preservation of those lawsuits, even after an individual 
graduates, when they are denied the right to engage in 
expressive activity in outdoor areas.
    Yeah. Speech zones are a big problem on college campuses. 
But there's a disagreement about how that should be handled. In 
the State of North Carolina, we passed a law, H.B. 527, in 
which we got rid of, essentially in one fell swoop, those 
unconstitutional speech zones.
    So I do agree with the legislative solutions. The question 
is whether that should be done on the State level or on the 
Federal level. I think probably on the State level.
    Chairman Goodlatte. Dr. Wood.
    Dr. Wood. The Higher Education Act already has in it as 
Title 1 a pretty strong affirmation of academic intellectual 
freedom. It is not backed up with any particular measures; it 
sounds like this Act would strengthen the provision that 
already exists.
    The only issue about----
    Chairman Goodlatte. Lots of time, what happens is the 
student graduates. And therefore, the restriction is no longer 
applicable to them because they have left the institution 
before the lawsuit can ever mature and ripen. Would you--would 
you support legislation that would preserve that right of 
action so it can get to a conclusion and be heard?
    Dr. Wood. Yes.
    Chairman Goodlatte. Professor.
    Mr. Simkovic. Congressman, there are between 4,000 and 
5,000 institutions of higher education in the United States. 
Many of them have internal policies governing freedom of 
speech, and they attempt to create an atmosphere which is 
conducive to research and conducive to learning. And they come 
to different conclusions about what that means in terms of 
balancing robust debate with an environment which is--enables 
concentration and contemplation.
    I don't believe that it would be appropriate to federalize 
this issue. I believe that universities are capable----
    Chairman Goodlatte. It is Federal. It is the First 
Amendment of the United States Constitution. Plus there is the 
Higher Education Act, which is a federal statute.
    Mr. Simkovic. Yes. I believe that it is important for the 
Government to fund education, to provide opportunities for 
people for advancement in their careers, to fund scientific 
research. But I do not feel that it is appropriate to 
politicize or centralize control over the production of 
knowledge.
    Chairman Goodlatte. Well, who is centralizing it? It--is it 
the institution that you are referring to that is centralizing 
control?
    Mr. Simkovic. There are between 4,000 and 5,000 
institutions. It is not very centralized, Congressman.
    Chairman Goodlatte. No. And I am talking about each 
individual institution, particularly if they are a public 
institution; whether or not the administration there should be 
able to say, ``You have got to go to this one little place if 
you want to freely express your ideas.''
    Mr. Simkovic. So, Congressman, there is tenure to protect 
academic freedom, which means that administrators cannot 
control what the faculty are----
    Dr. Groseclose. Yeah. I get your tenure agreement. I am 
talking about students having the ability to freely express 
themselves in outdoor areas on college campuses?
    Mr. Simkovic. So again, Congressman, the University of 
California at Berkeley spent $4 million on security costs to 
bring four speakers to campus. The Chancellor's Commission 
concluded that this was not an effective use of taxpayer 
dollars. That is money that could have been spent training 
engineers, training nurses, researching cures for life-
threatening illness. And it was spent for security for four 
speakers.
    Now, I believe that universities have a right to use their 
resources in the way which they believe best promotes their 
mission of promoting science and education.
    Chairman Goodlatte. Even--did the previous rights----
    Mr. Simkovic. And there are plenty--there are plenty of 
opportunities for the expression of different ideas. We have--
and university campuses are not very large. Anyone who is not 
invited to campus has the opportunity to rent space just off-
campus, and anyone who's interested can attend. Everyone has 
access to the internet. Everyone has access to----
    Chairman Goodlatte. Okay. These are----
    Mr. Simkovic [continuing]. Television. Everyone has access 
to books. Everyone has access to----
    Chairman Goodlatte. They are publicly financed institutions 
that don't have to respect free speech rights of groups of 
students on the campus or individual students on the campus.
    Mr. Simkovic. They do respect free speech rights. But 
universities are not public parks.
    Chairman Goodlatte. I think that's debatable.
    Mr. Simkovic. They are places of learning and places of 
education.
    Chairman Goodlatte. Let me go to Dr. Groseclose because I'm 
down to the last seconds of my----
    Dr. Groseclose. I think I completely agree. And I think 
that the Constitution already says if you are a public 
university, you cannot abridge freedom of speech. And I think 
it's--I'm not a lawyer--I think it is the 14th amendment that 
says these freedoms in the first--in the Bill of Rights are 
granted to the States; therefore, the States cannot make laws. 
And that would include public universities that would abridge 
freedom of speech.
    So I think you are exactly right. If you only have a 
restricted space where you have freedom of speech, that would 
seem like that would violate the Constitution to me.
    Chairman Goodlatte. Thank you. Thank you, Mr. Chairman.
    Mr. King. The gentleman returns his time, and this 
concludes Panel 1 of our hearing here today. And I want to 
thank all the witnesses for your testimony. And I would like to 
then ask you that if we could be seated with the following four 
other witnesses that follow each of you. So thank you again, 
gentlemen. We appreciate your testimony.
    [Pause]
    Mr. King. Well, as we--as we continue, I'm going to go 
ahead and introduce the four of the five witnesses that are 
here, and we will see if the fifth witness does arrive. And I 
am very pleased, first, to introduce our first witness, and it 
is Jim Hoft, who is the founder and editor of The Gateway 
Pundit.
    And our second witness is Adriana Cohen, who is a 
syndicated columnist and a radio host for the Boston Herald 
Radio.
    Our third witness is Jeremy Tedesco, the vice president of 
U.S. advocacy for the Alliance Defending Freedom. And then our 
fourth witness is Professor Ari Waldman, professor of law at 
the New York Law School. Professor Waldman.
    And perfect timing on her arrival would be our fifth and 
final witness, which is Harmeet Dhillon, a partner of the 
Dhillon Law Group, Incorporated.
    I would like to welcome all of you, and let you know that 
the green light that you will have at the beginning of your 
five-minute testimony will be four minutes long, and the amber 
light will be one minute long. And we would ask you to try to 
wrap up your testimony about that time. And we also want to 
give you enough latitude to complete the thought, or at least 
the sentence, depending on how intense our timing gets here 
today.
    And so I would ask each of the witnesses if you would stand 
and raise your right hand to be sworn in.
    Do you swear that the testimony you are about to give 
before this committee is the truth, the whole truth, and night 
but the truth, so help you God?
    Thank you. Let the record show that the witnesses all 
responded in the affirmative.
    And I would now recognize our first witness. That would be 
Mr. Hoft of Gateway Pundit.
    Mr. Hoft, you are recognized for five minutes.

TESTIMONY OF JIM HOFT, FOUNDER AND EDITOR, THE GATEWAY PUNDIT; 
ADRIANA COHEN, SYNDICATED COLUMNIST, BOSTON HERALD RADIO HOST; 
   JEREMY TEDESCO, VICE PRESIDENT OF U.S. ADVOCACY, ALLIANCE 
DEFENDING FREEDOM; ARI WALDMAN, PROFESSOR OF LAW, NEW YORK LAW 
  SCHOOL; AND HARMEET K. DHILLON, ESQ., PARTNER, DHILLON LAW 
                          GROUP, INC.

                     TESTIMONY OF JIM HOFT

    Mr. Hoft. Thank you, Chairman King and subcommittee 
members, for organizing this important hearing today.
    Your colleagues in Congress have provided a lot of air time 
recently to prominent CEOs of tech companies, who are trying to 
put me and others with my politics out of business. I thank you 
for allowing me to speak today instead of the perpetrators.
    My testimony today is how the purification of thought has 
been accomplished by one company with a monopoly hold on the 
public comments in our internet error. My name is Jim Hoft. I 
am the owner and founder of The Gateway Pundit website, based 
in St. Louis, Missouri.
    I am known in my business for making some good headlines. 
Here is today's headline I bring to you. In the runup of the 
2016 election, Americans got to choose what they would read in 
Facebook. Today, Facebook chooses for them.
    I grew up in Iowa, and I understand the pulse, the 
struggles, the hopes, and dreams of middle America. I came to 
find out that Facebook doesn't like my type. I launched Gateway 
Pundit in 2004 as a way to report on news that I didn't see in 
mainstream media. At first I had two or three daily readers, my 
twin brother Joe and a friend Chris. I was humbled and amazed 
to see our content grow in popularity over the years, thanks to 
promotions by Michelle Malkin, Glenn Reynolds, the Drudge 
Report, and several others.
    We provide news coverage and opinion that Americans could 
not provide (sic) elsewhere. There is no way to account for the 
demand of our content. On a shoestring budget, we offered 
something the American people desired, real news. We were 
ranked by Harvard and Columbia Journalism Review as the fourth 
most influential conservative publisher in the 2016 election. 
Our readers, smart, patriotic, and diverse, have not given up 
on the promise of America. This is who I represent today in 
speaking to you.
    2016 was a transformative year. This was the first election 
where Americans rejected en masse their legacy media options 
and turned to the freedom of choice and lack of filter on 
social media instead, through which they would share, comment 
on, and connect with websites like ours. The Gateway Pundit 
business cultivated its audience on Facebook, spending roughly 
$70,000 in advertising in 2015, resulting in 600,000 likes for 
our page.
    Over the past 19 months, The Gateway Pundit saw a decline 
in Facebook traffic from 24 percent of our total website 
traffic to 2 percent of our website traffic currently. That is 
an 80 percent decrease in traffic from Facebook.
    Recently we analyzed traffic numbers for some of the top 
conservative publishers in America. What we found was simply 
shocking. Just as Gateway Pundit has been eliminated by 
Facebook from being seen by its readers, Facebook eliminated 93 
percent of combined referral traffic to these websites from 
January 2017 to May 2018. The site Western Journal, and other 
conservative websites under their umbrella, had more than a 
billion page views in 2016. Since then, the organization has 
lost 75 percent of its Facebook traffic. Likewise, Clicked 
Media, which hosts over 60 conservative websites, lost 400 
million page views from Facebook in the last 6 months when 
compared to the prior year.
    With just these two organizations, they have lost more than 
1.5 billion page views in the past year from Facebook. After 
the election, Facebook began making algorithm changes to ensure 
that conservatives no longer had an option for their users.
    Two studies released in March 2018 confirm this. The first 
study is by outline organization that found conservative 
publishers were hit the hardest by Facebook algorithm changes, 
and The Gateway Pundit was actually hit the hardest.
    The second study by Western Journal revealed the same 
startling statistics. Further, this study found that liberal 
publishers actually increased by 2 percent in traffic during 
the same testimony frame. In fact, we found that every 
permanent conservative website from 2016 has either had their 
Facebook traffic diminished significantly or entirely 
eliminated. Again, we found that every prominent conservative 
website from 2016 has either had their Facebook traffic 
diminished significantly or entirely eliminated. If Facebook 
were to hold a book burning, they wouldn't have been half as 
successful as they have been eliminating contrary points of 
view from being accessed by the American people.
    In fact, book burning is benign when compared to what 
Facebook has silently done to restrict and eliminate diversity 
of thought. In book burnings, you can see the flames and watch 
the words disappear. In our case, we were silently and 
effectively disappeared.
    Several top conservative sites are already out of business. 
If our Fourth Estate is to remain as an effective check, as our 
Founders intended, we must ensure that political purification 
of thoughts by one communication corporation, Facebook, is 
given ample competition. Today that competition is being 
eliminated. Tomorrow there will be only a few sanctioned voices 
for the American people. This is not America.
    [The statement of Mr. Hoft follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Mr. Hoft.
    And now the chair would recognize Ms. Adriana Cohen for her 
testimony.

                   TESTIMONY OF ADRIANA COHEN

    Ms. Cohen. Members of the committee, thank you for inviting 
me here this morning to share my personal experience with 
social media censorship and discrimination. I am a conservative 
opinion columnist with the Boston Herald. My popular columns 
championing traditional Republican values and the Trump 
administration are nationally syndicated. I am also a Boston 
Herald radio host who interviews congressional lawmakers, 
leaders of government, including the President of the United 
States, who has been a guest on my radio show. I am also a Fox 
News commentator who appears regularly on the network.
    I am being discriminated against by social media networks 
who are censoring my conservative columns, radio interviews, 
and posts on its platform. This is a daily occurrence on 
Twitter, and has been happening for a long time. My well-
received conservative column is often the front-page feature in 
the Boston Herald and gets heavy traction and readership--
except on Twitter. Virtually every week, if not biweekly, when 
the Herald publishes my column, it becomes the number one most 
read and shared piece on the Herald's website, or close to it.
    But the same exact column isn't hardly getting any traction 
on Twitter when I post it there because it is secretly being 
censored by Twitter, which is why many of my Twitter followers 
report they don't see my columns and posts in their feeds.
    For example, my Boston Herald column titled ``Russia Truth 
Coming Out,'' dated May 22, 2018 was the number one-trending 
piece on the Herald site. It got 62,300 Facebook shares on the 
Herald site, and hundreds of comments. But the same column on 
Twitter got virtually zero traction. To be exact, it got only 
11 retweets, 26 likes, and 2 comments.
    On April 5th, my column titled ``Trump: Exactly Who We Need 
versus China'' was the number one-trending piece again at the 
Boston Herald's website, getting heavy traction and engagement. 
But on Twitter, the same exact column got 9 likes, 5 shares.
    Last week, September 20th, my column titled ``No Holds 
Barred in Democrats' Attacks'' was again the number one-
trending piece on the Herald site. But on Twitter the same 
column got 15 likes and 6 retweets. This is just a small sample 
of the blatant censorship and egregious discrimination I am 
being subjected to on a regular basis on Twitter.
    Please note that not only my popular column's leading the 
Herald's website and getting heavy traction and readership 
there, it is often picked up by other major media nationally, 
including the USA Today, the Washington Post, RealClear News, 
Fox News, and many other outlets, and getting significant 
traction virtually everywhere except Twitter.
    I can provide scores of additional examples. But given the 
limited time I have for testimony, I am sharing just a tiny 
fraction of the censorship I am experiencing on Twitter. I am 
happy to provide additional corroborating evidence for the 
record upon request.
    I have over 16,000 Twitter followers, and the vast majority 
of them aren't seeing my columns and posts because they're 
being blocked by Twitter. Here are a few examples.
    On March 25, 2018, I asked Tony Shaffer--he is blue-check-
mark verified--in a direct message if he is seeing my columns 
in his feed. Mr. Shaffer replied, ``Nope. Not seeing them.'' On 
March 25, 2018, I asked Dan Bongino, blue-check-mark verified, 
if he is seeing my columns in his feed. Mr. Bongino responded, 
``I have not been seeing the columns. They are messing with me, 
too. It is a cesspool.''
    On September 5, 2018, I sent another message to Dan Bongino 
to see if he had seen just a tweet I posted about Nike. Mr. 
Bongino responded, ``I didn't see it, either.'' On September 6, 
I asked Tom Borelli, blue-check-mark verified on Twitter, if he 
saw my column I posted on Judge Kavanaugh on his Twitter feed. 
Mr. Borelli responded, ``I did not see it, and I just looked at 
my feed since last night and didn't see it, either.''
    On June 4, another Twitter follower of mine, 
RightSideofReagan, told me, ``I have been following you, but 
you never come up on my feed, FYI.'' On March 26, Jeff Katz 
told me on--via direct message on Twitter, ``No. Not seeing 
your stuff in my feed.''
    On September 6, Steve Tomkowicz posted on Twitter, ``Wow. I 
check my feed every day and scroll way down. I can't remember 
the last time I have seen a tweet from you. This is the first 
on my feed in quite a while.''
    On March 29th, Michael Santoro said, ``I follow you, but 
never see your columns. This happens with other conservatives I 
follow.'' On September 6, Susie Light posted on Twitter, ``I 
NEVER''--``never'' in capitalizations--``see your tweets unless 
you say something like this. I am sorry this happens to you.''
    There are many other Twitter followers who tell me they 
don't see my posts in their feeds. I am submitting additional 
evidence for the record. I could go on and on for an hour of 
screenshots and quotes of my Twitter followers who tell me that 
they did not see my tweets or columns in their feeds.
    I ask the committee to consider this scenario. Imagine if 
the phone company refused to connect phone calls between two 
parties because they didn't like the opinions expressed in the 
conversation. This is exactly what Twitter is doing to me and 
thousands of conservatives like me every single day throughout 
the Nation.
    This type of egregious censorship is trampling on my 
constitutional rights, including my rights to free speech. It 
is also censoring lawmakers and heads of government agencies 
because I interview important members of our government, and 
often include excerpts from those radio interviews in my 
columns. That means when social media networks block 
distribution of my conservative columns and podcasts, they are 
also censoring Members of Congress. This discrimination is 
hurting the American people, who are being denied access to 
vital information from government officials, information that 
impacts their lives.
    On Facebook, my posts are also being censored. Many of my 
Facebook followers tell me they don't see my columns and posts 
in their forwards. I reached out to Twitter and Facebook for an 
explanation on multiple occasions, and have not received a 
response.
    By censoring my columns, podcasts, and television 
appearances, these social networks are damaging my career as a 
female columnist, television commentator, and radio 
personality. They are also hurting other conservative voices, 
also being solicited. And they are hurting the business sector 
including my employer, the Boston Herald, the Creator 
Syndicate, and other outlets who are being denied clicks to its 
website every time my column and content gets censored by these 
social media networks.
    But most importantly, social media networks are meddling in 
U.S. elections by allowing its users, who possess liberal 
viewpoints, unfettered access to its platforms and voters while 
silencing scores of conservatives. This rigs the electoral 
system because Twitter and Facebook are giving Democrats the 
ability to shape public opinion and connect with millions of 
voters, while denying that same opportunity to scores of 
conservatives, including myself.
    I have written several columns on this topic that I am 
happy to submit to the committee. Twitter and Facebook are 
deceiving the American people----
    Mr. King. Ms. Cohen, I would ask you to summarize your 
testimony, if you could, please. We're over a couple minutes.
    Ms. Cohen. Oh, okay.
    Mr. King. Thanks.
    Ms. Cohen. Excuse me. So I just want to say that I have 
never said anything that is hate speech or anything close to 
it. So there is no justification whatsoever for social media 
networks to be silencing a mainstream conservative like myself.
    [The statement of Ms. Cohen follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Ms. Cohen.
    The Chair would now recognize Mr. Tedesco for his five 
minutes.
    Mr. Tedesco.

                  TESTIMONY OF JEREMY TEDESCO

    Mr. Tedesco. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before you today.
    My name is Jeremy Tedesco. I am senior counsel and vice 
president of U.S. Advocacy with Alliance Defending Freedom. ADF 
is one of the Nation's most respected legal organizations 
defending constitutionally protected free speech and free 
exercise rights for all Americans. Since 2011, ADF has won nine 
cases before the United States Supreme Court involving issues 
like legislative prayer, school choice, and the discriminatory 
treatment of churches.
    Empirical SCOTUS recently ranked ADF first among the top-
performing firms in its ``Supreme Court All-Stars''' 2013 to 
2017 report because ADF won all four of its decisions before 
the Court during the five-year period. In addition to its 
Supreme Court work, ADF's Center for Academic Freedom has won 
over 400 vacancies for free speech, ensuring that the college 
campus remains a marketplace of ideas for millions of students 
and faculty.
    We live in a time when the need for productive civil 
discourse has perhaps never been more urgent. Yet at the same 
time, the obstacles to achieving it have never seemed more 
insurmountable. We appreciate this committee's leadership in 
fostering a commitment to robust debate and dialogue.
    ADF, too, is committed to cultivating a society typified by 
the free speech and free exchange of ideas and respect and 
tolerance for those with whom we disagree. These deeply-rooted 
constitutional principles are essential in a diverse country 
like ours. They enable us to peacefully coexist with each 
other.
    Sadly, several of the most influential technology giants, 
many of which are integral to the daily lives of millions of 
Americans, are endangering the vitality of these core American 
principles. Silicon Valley's digital gatekeepers have 
frequently represented their platforms as committed to free 
expression and creating an open marketplace of ideas. But as my 
written testimony details and as we have heard today, they have 
broken their promises by restricting conservative and religious 
speech over and over again.
    The recent push to restrict what they call hate speech 
exacerbates this threat because, invariably, Silicon Valley and 
others apply the hate speech label to traditional, widely-held 
views they disagree with on a range of important topics like 
immigration, abortion, marriage and sexuality.
    These companies further intensify the threat to 
conservative and religious speech by collaborating with far-
left advocacy groups like the Southern Poverty Law Center to 
enforce their hate speech policies. Commentators across the 
political spectrum agree that SPLC is a biased, agenda-driven 
activist group.
    Kimberley Strassel wrote, ``SPLC exists to spear 
conservatives and tags you as a hater if it doesn't agree with 
your views.'' Left-of-center Politico published an article in 
which it noted the longstanding criticism that SPLC is becoming 
more of a partisan, progressive hit operation than a civil 
rights watchdog.
    SPLC's credibility took another enormous hit recently when 
it issued a public apology and paid nearly $3.5 million to 
settle a threatened defamation lawsuit by Muslim reformer 
Maajid Nawaz, who SPLC had falsely labeled an anti-Muslim 
extremist.
    Yet despite knowing SPL's clear--SPLC's clear bias and 
partisanship, tech companies continue to collectively partner 
with SPLC and embrace its intentional smear campaign against 
mainstream conservative and religious views held by millions. 
These actions contradict these companies' promises to cultivate 
civil discourse and free exchange of ideas, and deceive the 
members of their online communities and consumers who rely on 
these promises.
    ADF itself has already been the victim of this troubling 
arrangement. Earlier this year, Amazon excluded ADF from the 
Amazon Smile program, which promises customers that they can 
donate a small percentage of their purchases to the charitable 
organization of their choice. Solely because SPLC wrongly 
labels a hate group. Amazon likewise bars many other 
conservative and religious charities by relying on SPLC's 
biased labels.
    This is only the tip of the iceberg on how these companies 
can impact the marketplace. We know from recent news that they 
sometimes act in concert, excluding disfavored speakers from 
multiple platforms all at once. The power they wield over free 
expression and information access is deeply troubling and has 
real-world consequences for those caught in the crosshairs.
    We understand that there is no easy solution to these 
issues. But at a minimum, Congress should hold additional 
hearings and use its considerable influence to encourage 
Silicon Valley companies to abide by their representations. 
They shouldn't promise and open and robust marketplace of 
ideas, but then collaborate with biased and discredited groups 
like the SPLC to shut down one side of an ideological and 
intellectual debate.
    Thank you, and I am happy to answer any questions.
    [The statement of Mr. Tedesco follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Mr. Tedesco.
    And now the Chair recognizes Professor Waldman for your 
testimony.
    Professor.

                    TESTIMONY OF ARI WALDMAN

    Mr. Waldman. Thank you, Mr. Chairman and distinguished 
members of the committee. Thank you for inviting me here to 
testify today. My name is Ari Waldman, and I am a law 
professor. I hold a J.D. from Harvard Law School and a Ph.D. in 
sociology from Columbia university.
    For the last 8 years I have studied how technology mediates 
our daily lives. I study things like when and how we share 
personal information, how technology design manipulates our 
online behavior, and how we can make online spaces safe for 
everyone, and the legal and regulatory environments in which 
data collectors like Facebook operate. I also study content 
moderation and responsibilities of online platforms. Let me 
note here that although I research and write in this area, I 
stand on the shoulders of far smarter and more accomplished 
colleagues, many of whose work I will cite and rely on here 
today.
    A recent article in the magazine Wired made an important 
observation. To communicate anything, the authors wrote, 
Facebook can't communicate everything. This has always been 
true of media platforms. Neither Salon nor the National Review 
can publish everything.
    Content moderation rules do not imply the First Amendment 
in the traditional sense. We may have--we all may have a First 
Amendment right, subject to some limitations, to say what we 
want, free of government's intervention or censorship. But we 
don't have a First Amendment right to a private company's 
amplification of our words, whatever James Woods recently said 
on Twitter or whatever media personalities might want. So let's 
discuss for a moment how and why platforms actually moderate 
content. So first, the how.
    Content moderation is a complex ecosystem of technology and 
people. Moderation sometimes happens before content is 
published, in that time between when you upload and video and 
when it is actually published or available online. This process 
is automatic, using data transaction algorithms that screen out 
things like child pornography or copyrighted material.
    After publication, moderators either proactively remove 
content that violates platform rules, either with extremist or 
terrorist speech, for example, and outsourced talent is 
supervised by more experienced content moderators, many of whom 
work outside the U.S. or at call centers. The top level 
moderation happens back at headquarters by lawyers directly 
responsible for content moderation policies and training.
    These moderators work very much like judges would. They are 
trained to exercise judgment based on rules set out by the 
platforms. And because these rules were created and promulgated 
by lawyers steeped in the American legal tradition, they 
reflect the free speech norms many of us learned in law school.
    Now, why do platforms do this? They are, as you know, under 
no legal obligation to do so. They have, however, normative and 
financial incentives to. Every platform designs values into its 
code; some social spaces are meant to be overtly uninhibited, 
like 4chan.
    One of Facebook's central values is, for example, to bring 
people together. As a result, in responsibility--in response to 
manipulation of the platform by fake news sources, Facebook 
redesigned its news feed algorithm to privilege and prioritize 
posts from our friends rather than from media or business 
pages, resulting in loss of followers for some.
    The result is that lots of content gets filtered out, but 
no moreso from the right than from the left. What I have heard 
here today on this panel and for the last panel are anecdotal 
evidence. So, if that is what you want, here is some more.
    When victims of racist, homophobic, and sexist tweets and 
comments post those comments to call out the aggressors, it is 
often the victims that get banned or suspended. Activists 
associated with Black Lives Matter--the Black Lives Matter 
movement have reported just as many, if not more, takedowns of 
images discussing racism and police brutality than any of the 
anecdotal evidence of suspicions or takedowns on the right. 
Facebook has a long history of taking down photos of 
breastfeeding mothers. In 2014, the company suspended drag 
performers for using their drag names. An advertisement for a 
book featuring an LGBT vision of Jesus was also rejected. At a 
minimum, these kind of things happen, but they happen on the 
left and they happen on the right. If speakers, conservatives 
or progressive, would like to get blocked less, they should 
perhaps stop posting lies, defamatory statements, unfounded 
conspiracy theories, fake news, and so forth.
    James Woods doesn't have a right to a Twitter megaphone. 
Neither do racists, homophobes, bigots, misogynists, revenge 
pornographers, child molesters, sex traffickers, or any number 
of others. So I would ask some people who have--have the--have 
had this experience, is it really the case that the platform is 
discriminating against you because of your views or because of 
your behavior, which violate platform rules?
    So why do platforms do this? Well, content moderation 
occurs algorithmically. It is subject to problems. Why do these 
mistakes happen? Why do people get blocked when they think they 
shouldn't? Sometimes there are mistakes. Yes, absolutely. 
Sometimes algorithms make mistakes as well as people make 
mistakes.
    Content moderation on Facebook, however, is part of a 
larger narrative about how even the lack of even reasonable 
regulation allows Facebook to take a cavalier approach to our 
privacy, safety, and civic discourse? But if you want to talk 
about bias, let's talk about the real bias online.
    Statistically sound social science research from scholars 
like Safiya Noble and LaTanya Sweeney and researchers at the 
MIT Media Lab have shown that Google and other platforms are 
biased. But it is not partisan bias; it is pervasive racial and 
gender bias, the kind of bias that leads to Google's auto-
complete searches for, ``Why are black girls,'' for example, 
with the completed phrase, ``so angry'' or ``so loud,'' or the 
kind of bias that returns pictures of black women when you 
search for the word ``gorilla.''
    In her book ``Algorithms of Profession''--``Oppression,'' 
Professor Noble culls many of these examples and shows with 
pinpoint accuracy and statistical significance that this 
happens often, and far more often than anecdotal evidence of 
this or that person losing followers, and many of those 
followers were probably board of trustees anyway.
    This bias happens because Google isn't simply a machine. It 
is software. It is made by humans and enforced by humans. And 
its software sometimes can't even tell the difference between, 
say, an Asian woman's eyes and eyes that are closed. We know so 
little about how this works, and we do need to talk about bias. 
But not the kind of bias that this panel and this committee 
appears to be worried about.
    We need answers to real bias, and those answers may either 
be readily available through an empowered Federal Trade 
Commission, or access to platform data and research so 
academics can investigate how a platform like Google biases and 
harms marginalized populations.
    [The statement of Mr. Waldman follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Professor Waldman.
    The chair now recognizes Ms. Dhillon for your testimony. 
Ms. Dhillon, I would point to the panel and the members of the 
committee that we're expecting votes any minute. So it looks 
like we can actually conclude this hearing at an appropriate 
time today, and I hope we're able to do that.
    Ms. Dhillon.

                TESTIMONY OF HARMEET K. DHILLON

    Ms. Dhillon. Yes. Thank you, Mr. Chairman and members of 
the committee and their staff.
    I am a trial lawyer in private practice in California, with 
a focus on----
    Mr. King. Turn on your microphone, please.
    Ms. Dhillon [continuing]. With a focus on business, 
technology, employment, and First Amendment litigation. In my 
25-year career, I have represented numerous course subject to 
discrimination in academia, the workplace, consumer markets, 
and civil rights matters.
    As a Silicon Valley employment lawyer, I have learned that 
big tech firms systemically and illegally engage in widespread 
discrimination against American workers on the basis of their 
gender, race, religion, values, and political affiliations, the 
latter of which is barred by California law.
    Several of these companies employ hiring quotas and 
preferences to achieve diversity, but not diversity of 
viewpoint. Google employees who dare to dissent are not only 
fired but are also publicly shamed, humiliated, labeled, 
blacklisted, and sometimes pursued after firing with secretive 
arbitrations designed to punish and even bankrupt them, all 
with no right of appeal.
    My client James Dumore was fired by Google last year 
because he dared to share, internally within Google, a 
memorandum he created in response to Google's request for 
feedback regarding their diversity indoctrination sessions. His 
memo reflects and discusses widely held views supported by 
published research regarding differences between men and women, 
and his thoughts about how those differences might be relevant 
to making Google's workplace more attractive for women.
    James fell victim to big tech's war of political 
correctness and social engineering. And for every James Dumore 
and his colleagues at Google who publicly and privately seek 
protection against these abusive practices, there are thousands 
more whose names will never be heard by this committee.
    Indeed, shortly after I filed the lawsuit on behalf of 
James Dumore and his colleagues, Google moved swiftly for a 
protective order censoring what information might be publicly 
disclosed in court filings, and by demanding that James and two 
of his colleagues submit their claims to separate, individual, 
private arbitrations.
    As a result, most of the employment issues implicated in 
these cases will never be heard in open court. And both the 
public and the government may never learn the truth of what 
occurred or be allowed to consider what actions should be taken 
to prevent these un American practices in the future.
    The employer's motivation across each of these cases 
appears to be the same. To impose upon their employees only 
those progressive values that dictate a redistribution of 
opportunities and benefits to certain defined classes at the 
expense of others, with no regard to the human carnage meted on 
innocent workers who have not themselves discriminated against 
anybody.
    This problem is not restricted to Silicon Valley. I have 
spoken to or represented employees across the United States 
facing similar issues. I have shared with my--with the 
committee my written testimony, two dozen examples of some of 
the examples of political bias in the workplace I have learned 
about from the over 100 current and former big tech employees 
who have contacted my firm within the past year. I have many 
more examples.
    To name but one, a Google employee was fired this year as a 
direct result of his cooperation with a Federal investigation 
into the company's illegal labor practices, including work 
rules that bar employees from discussing their work conditions, 
one or--one or another, or with third parties in violation of 
the National Labor Relations Act, as well as bullying and 
retaliation related to protected labor activities.
    When Google found out that this employee was talking to the 
government, they printed out two years of his internal search 
history and interrogated him on search queries related to 
employee rights issues on multiple instances over the course of 
several months.
    Google abruptly suspended and then fired this employee days 
after the NLRB announced that it was moving forward with his 
case after over two years of investigative and policy analysis.
    The chilling effect of these witch hunts and these 
decisions cannot be overstated. Big tech's anti conservative 
bias extends far beyond the confines of labor and employment 
law, and you have heard some examples here today. In some 
markets such as digital advertising, big tech companies have 
near monopoly or duopoly power, such that the lack of 
competition means consumers are stuck with biased and even 
discriminatory product offerings.
    To give but one recent example from the Wall Street 
Journal, following President Trump's implementation of a travel 
ban in January 2017, Google employees discussed internally how 
to leverage Google's search functions to counter undesirable 
political viewpoints while promoting pro-immigration 
organizations and advocacy. They did all of this without 
informing consumers that they were manipulating the results of 
the searches.
    Google maintains at least nine different blacklists that 
impact our lives, generally without input or authority from any 
outside advisory group, industry association, or government 
agency: the auto-complete blacklist, the Google maps blacklist, 
the YouTube blacklist, the Google account blacklist, the Google 
news blacklist, the Google AdWords blacklist, the Google 
AdSense blacklist, the search engine blacklist, and the 
quarantine list.
    Google advertising sales employees have gone out of their 
way to inform consumers of sites they should avoid advertising 
on because the content is ``unsafe,'' such as Breitbart. Google 
has banned payday lender ads even though it invests in such 
companies.
    Google has taken similar action with respect to bail 
bondsmen, blocking people from finding legal businesses that 
are part of our criminal justice system under the guise of 
banning users from seeing harmful products. Google is not 
alone.
    We have previously heard here about Twitter censorship. Our 
client, True Pundit, a popular conservative blog which has 
approximately 270,000 followers on Twitter, has persistently 
suffered from Twitter's shadow banning, outright banning, and 
follower-deleting practices.
    Mr. King. Ms. Dhillon, could you summarize, please?
    Ms. Dhillon. Yes, sir. Big tech has become an insular 
fortress of thought coercion and vindictive behavioral control. 
The culture and tactics of some companies would make Orwell's 
Big Brother proud, as they often surpass the cult-like thinking 
described in the book ``1984.''
    These actions are broad-based attempts to completely 
reclassify or dispense with logic and reason and reshape our 
economy and our society in a progressive utopian form. Thank 
you for inviting me here, and I look forward to questions.
    [The statement of Ms. Dhillon follows:]

                  **********COMMITTEE INSERT**********

    Mr. King. Thank you, Ms. Dhillon. I thank, I think, all the 
witnesses for your testimony.
    Now I will recognize myself for five minutes of questions, 
and I would start with Mr. Hoft, and ask you, Mr. Hoft: Have 
you written about crisis actors?
    Mr. Hoft. You know, that is a term that we get accused of 
quite frequently. I actually brought some evidence of that. I 
expected that this would come up. The Washington Post put out 
an article. I have a picture here with my picture on it, and I 
am saying it that the Gateway Pundit was behind the crisis 
actor type. It is a term we never used. We never used this.
    And so this is an example of the fake news you would see 
in--not online, but in the--in the mainstream media, who repeat 
this. And it's actually a term that was never published on our 
site. So----
    Mr. King. Okay. And--but it was in relation to the Parkland 
shooting. Can you just--can you summarize what you wrote about 
Parkland shootings?
    Mr. Hoft. We wrote several articles about the Parkland 
shooting, of course. It was a big national story. We cover it 
extensively. And we were one of the first people to point out 
that this--one of the spokesmen for the anti-gun groups. His 
father was in the FBI.
    And we said that this video, it looked a little strange. It 
looks like there was somebody coaching him or something. We 
just, you know, put it out there. You can decide for yourself. 
The feedback we got was about 90 percent said yeah, it looked 
like he is being coached.
    So this got us in a lot of trouble with the mainstream 
media. They reported on this a lot, and Hillary--or Chelsea 
Clinton's retweeting it, attacking me. But I still stand by 
that article today. It was--it was a good article. It was good 
information.
    And the fact that they are telling us that we can't even 
question things today is very distributing.
    Mr. King. Is there a distinction between being coached and 
being an actor?
    Mr. Hoft. Absolutely. Yeah.
    Mr. King. And I am going to--I am going to make this 
statement. I am not going to ask you. I am going to guess that 
there is a witness over in the Senate today that is very, very 
well coached for the testimony that is being delivered as we 
have this hearing here today.
    I am going to argue that that is an equivalent situation, 
or perhaps even much moreso coaching taking place today.
    Mr. Hoft. We know that people get coached.
    Mr. Raskin. I think the President coached Judge Kavanaugh 
after his disastrous performance on TV that that--you were 
right.
    Mr. King. I control the time, Mr.--Mr. Raskin, that--I will 
recognize you in your time.
    And then you have given, Mr.--Mr. Hoft, some significant 
data here, some dramatic reductions. One of them was 90-plus 
percent, 93 percent in the aggregate. These are Facebook posts 
altogether.
    Mr. Hoft. These were top conservative sites. We looked at--
we--there are tracking websites, like SimilarWeb, like--there 
are a few out there. We use their data. We paid for some data. 
And we saw that with the conservatives, they were getting 
completely pummeled since the election. A couple of the top 
conservative sites have been put out of business.
    We looked at liberal sites. And like I said, the Western 
Journal study found that with liberal sites, their traffic 
numbers actually went up by 2 percent. SO that is the data we 
brought today.
    Mr. King. Are you aware of any Members of Congress that are 
having their communications suppressed?
    Mr. Hoft. You know, the Western Journal, again, did a 
subsequent study. They found that, again, that conservatives 
were facing more of the backlash. Their--their articles were 
being hidden by Facebook compared to liberal politicians.
    Mr. King. And so if Members of Congress wanted to be 
familiar with the effect of that, and familiar with it, is 
there an outlet that they could access to learn those 
trendings?
    Mr. Hoft. Certainly we put up those--those studies I have--
I have brought some extra information today that will be put in 
the Congressional Record. Like I said, Western Journal did some 
tremendous reporting on this.
    So the information is getting out there. But people don't 
understand how widespread this is, so thank you for inviting me 
today to testify.
    Mr. King. But we can't necessarily expect that if you post 
that information on Facebook, that we can find it there. We 
should go to your website instead?
    Mr. Hoft. Right. You probably better go to the source.
    Mr. King. Ari. Thank you, Mr. Hoft.
    I turn to Ms. Cohen, and I appreciate you coming down for 
your testimony today. And I know you didn't get to the 
conclusion of your testimony. But you had a lot of data that 
was stark to me to hear from multiple people that are your 
communications and friends (sic), and some people I know that 
can't access your material.
    Ms. Cohen. That's right.
    Mr. King. And going from tens of thousands from the Boston 
Herald down to a mere handful on Twitter.
    Ms. Cohen. Exactly.
    Mr. King. Would you please speak to that?
    Ms. Cohen. Exactly. And I just highlighted three examples. 
But I am a prolific writer. I have published hundreds of 
columns and done hundreds of radio interviews with Members of 
Congress. I have interviewed Attorney general Jeff Sessions. 
You name it.
    I mean, I am very hardworking. I publish at least two to 
three times a week. So I am just limiting three examples, but I 
am happy to provide the committee with rows of examples, how 
Twitter and Facebook are censoring me.
    And I only gave you a small snippet of my Twitter followers 
who have told me exactly that they can't see my columns in 
their feeds. These are people who are following me for a 
reason. They want to read my content and see it, and they 
can't. And they're on Twitter all the time, so it's not like 
they missed it or they're only on Twitter once in a while. 
These are prolific people, my industry peers in television and 
radio and in print.
    And if I could just make a comment. I would like to defend 
myself and all conservatives from something that Mr. Waldman 
has said. He is saying that the only reason why social media 
networks are censoring conservatives is because we make racist 
posts and we have hate speech. I have done, never, any of those 
things.
    And number two, I would like to ask Mr. Walden if--Waldman 
if he believes the Declaration of Independence is hate speech 
because Facebook censored and took down the Declaration of 
Independence this summer from a community newspaper in Texas. 
So if that is what you consider hate speech, you don't belong 
in this country.
    Mr. King. Well, and Ms. Cohen, rather than start a debate, 
we are going to recognize that as a rhetorical question.
    Ms. Cohen. Uh-huh. [Laughter.]
    Mr. King. And I am going to conclude my part of this 
questioning, and recognize the gentleman from Maryland for 
his--for his questioning.
    Mr. Raskin. Well, thank you, Mr. Chairman. I think all of 
our distinguished witnesses belong in America.
    But Ms. Cohen, let me start with you. Your story tugs at my 
heartstrings because I used to read the Boston Herald when I 
was in college. And you were claiming discrimination against 
you as a conservative. But I am not even sure what that 
category means.
    Certainly, to the people in this room, as a conservative, 
do you believe in the free market in communication? Or do you 
believe in government control of private media entities?
    Ms. Cohen. I think it is a really great question that you 
have brought up.
    Mr. Raskin. You have got to answer succinctly, if you 
would.
    Ms. Cohen. Okay. I want to say this, that normally 
conservatives do not support, you know, big government and 
over-regulation.
    Mr. Raskin. But I--yeah.
    Ms. Cohen. But with respect to these social media 
companies, they are a monopoly, effectively.
    Mr. Raskin. Okay. So----
    Ms. Cohen. Because this is where the majority of Americans 
get their news, including voters.
    Mr. Raskin. Okay. Sorry. Just cutting to the chase here----
    Ms. Cohen. Yeah?
    Mr. Raskin [continuing]. So you think that Twitter, 
Facebook, and Google should be regulated by the government in 
terms of their----
    Ms. Cohen. I do. Like a public utility. Because I know you 
wouldn't support public utilities cutting off their services--
--
    Mr. Raskin. Okay. I have got your positions. Thank you.
    Ms. Cohen [continuing]. To certain individuals.
    Mr. Raskin. If you get the chair to give me 5 more minutes, 
I will pursue it with you.
    But Mr. Hoft, let me--let me come to you. Now, you were 
allegedly discriminated against by the conservative political 
action committee, which banned you from the conference, or 
disinvited you, because of your putative alignment with those 
saying that the Parkland survivors were crisis actors, or were 
being coached, or whatever. For whatever reason, maybe they 
were wrong in doing that.
    But did you have a First Amendment claim against them? And 
should you be able to sue them and get an injunction against 
them for excluding you from the conference?
    Mr. Hoft. Well, they actually made a decision based on the 
information they had. And I--I believe that was inaccurate 
information.
    Mr. Raskin. Can you sue them? Should you have First 
Amendment rights in action against them?
    Mr. Hoft. It is--that is not my intention at this point. I 
was asked not to speak there, and that is fine. That is----
    Mr. Raskin. Okay. So let's say you were banned from MSNBC 
for the same comments that you made or for your comments with 
Infowars or whatever. Would you have a right against MSNBC?
    Mr. Hoft. If they don't want to have me on, I don't need to 
go on that channel.
    Mr. Raskin. And Fox News would have the right to exclude 
you or me or any liberal Democrat. Right?
    Mr. Hoft. They have the right to choose who they want on 
there.
    Mr. Raskin. So why do you think that you have a right to 
make Facebook or Twitter carry you at all?
    Mr. Hoft. That is--That is a great question. Thank you. I 
think, with Facebook, we see today people get up in the 
morning, they are looking at Facebook. It is much larger than 
one--you can choose the channel you want to watch on 
television.
    Mr. Raskin. A lot of people watch the Fox News.
    Mr. Hoft. You can't choose--you can't choose the channel 
that you want with Facebook. There's no--there's no 
competition.
    Mr. Raskin. Okay, sir. So are you in agreement with Ms. 
Cohen--wait. Let me just get it straight.
    Mr. Hoft. And by the way, they also--they also have--they 
also have Instagram.
    Mr. Raskin. Mr. Hoft, I control the time. I am going to ask 
you, are you agreeing with Ms. Cohen that these are public 
utilities that can be regulated by the government, and we 
should be regulating them in terms of their content?
    Mr. Hoft. I think some--some laws need to be passed. I 
think regulation would be a good thing. I think they need to be 
transparent, too. If they are going to--if they are going to be 
against conservative thoughts and conservative websites, they 
need to be honest about that.
    Mr. Raskin. Okay. So Ms. Dhillon, let me come to you 
because you were actually complaining about employment action, 
as I understand it, for people working at--I think it was at 
Google who----
    Ms. Dhillon. That was among the topics that I discussed.
    Mr. Raskin. Yeah. So do you believe, as a conservative, 
that people have a right not to be fired for political reasons 
by private corporations?
    Ms. Dhillon. Well, as I stated in my testimony, that is 
actually California law.
    Mr. Raskin. Yeah. So in----
    Ms. Dhillon. And yes, I believe California law should be 
applied to people who work in California. Absolutely.
    Mr. Raskin. Okay. And so do you--and you believe that is a 
general principle, that people should not be able to be fired 
for their right-wing views, their left-wing views, pro-union, 
anti-union, what have you?
    Ms. Dhillon. I did not say that. You said that.
    Mr. Raskin. I am asking you.
    Ms. Dhillon. I said California law----
    Mr. Raskin. I'm asking you. I'm asking. I'm asking you. 
What is your position? Look----
    Ms. Dhillon. I am not here to fantasize about laws that 
aren't on the books.
    Mr. Raskin. Look. As I said--excuse me. A lot of my 
colleagues think you guys are just whining, and I am trying to 
torture out of this some theoretical coherence. So what I am 
trying to say is: What is the legal or what is the legislative 
remedy you are looking for? Do you think that workers in 
America should have a right not to be fired for their politics? 
Is that the position you are taking?
    Ms. Dhillon. I am not taking a position on Federal 
legislation here. I am talking about the----
    Mr. Raskin. Okay. Well, we're not the California Assembly. 
Why are you talking to us, then? Go take it to the California 
court. I thought you had something to say to the Congress of 
the United States.
    Ms. Dhillon. Oh, are you questioning why I was invited 
here?
    Mr. Raskin. I am asking what you have to say to us.
    Ms. Dhillon. It feels like a personal attack.
    Mr. Raskin. Do you have any interest in Federal legislation 
relating to the rights of workers? Or you are just telling us 
about a case that you are dealing with in California?
    Mr. Waldman. I covered a number of topics. But one of them, 
while we are on the subject of Federal legislation, is 
Communications Decency Act, Section 230, Immunity. That is 
something that a lot of the questions here on this panel seems 
to ignorantly confuse the fact that Fox News is not covered by 
the immunity (sic), whereas the social media networks are.
    I do think that that law needs to be revised to strip that 
immunity from those companies----
    Mr. Raskin. Okay. So you have no comment as----
    Ms. Dhillon [continuing]. Because they do not deserve it.
    Mr. Raskin. Excuse me. You have no comment as to whether or 
not workers should have a right not to be fired for their 
politics? You just don't think peer pressure should----
    Ms. Dhillon. That is already the law where I practice law. 
So that is the law am operating under.
    Mr. Raskin. Okay. Mr. Chairman, I have had enough. Thank 
you.
    Mr. King. The gentleman's time is expired. And the chair 
once again thanks the witnesses, those on the panel and those 
on the first panel as well who monitor all of this because they 
have an intellectual curiosity about where this is going to go, 
as do I.
    And--but this concludes today's hearing. And again, I thank 
all of our witnesses. Without objection, all members will have 
five legislative days to submit additional written questions 
for the witnesses or additional materials for the record.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 1:25 p.m., the Subcommittee hearing was 
adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
